fa

2311 Douglas Street CX

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B 5 a fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

CHILDREN’S HOSPITAL
ASSOCIATION OF TEXAS, et al.,
Petitioners,

Vv.

ALEX M. AZAR II, SECRETARY OF
HEALTH AND HUMAN SERVICES, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8606 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY Stata of Hebraska
eee Ane. 0. os’ Queer Obl
My Comm. Exp. September 8, 2022

Notary Public / Affiant 39456

   
